LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 1, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-251: AMERICANS FOR PROSPERITY FOUNDATION V. XAVIER BECERRA,
ATTORNEY GENERAL OF CALIFORNIA
RE 19-255: THOMAS MORE LAW CENTER V. XAVIER BECERRA, ATTORNEY GENERAL
OF CALIFORNIA
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Judicial Watch, Inc. and the Allied Educational Foundation referenced above
contains 2,948 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of March 2021.

